 Department of Health and Human Services

         OFFICE OF

    INSPECTOR GENERAL





 CLINICAL PRACTICE GUIDELINES

       SPONSORED BY THE

AGENCY FOR HEALTH CARE POLICY

         AND RESEARCH

 EARLY
EXPERIENCESINCLINICALSETTINGS





          ‘e­


                $
         g           JUNE GIBBS BROW
         <
         2           Inspector General
         ‘6
           %++
             %’d~~      September 1995
              >
                        OEI-01-94-00250
                    TABLE                     OF CONTENTS


                                                                                                                        PAGE
EXECUTIVE      SUMMARY

INTRODU(XION           .........................                        . . . . . . . . . . . . . . . . . . . . . . . .             1


FINDINGS     ..............................                             . . . . . . . . . . . . .   ...0.   .   .   .   .   .   .   5


    The Extent ofGuideline           Use . . . . . . . . . . . . . .    . . . . . . . . . . . . . . . . . . . . . . . .             5


    Ways in Which the Guidelines Have Been Used                         . . . . . . . . . . . . . . . . . . . . . . . .             7


    Organizations’ Assessments oftheir               Guideline Use . . . . . . . . . . . . . . . . . . . . .
 10

    Obstacles to Guideline Use             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 11

RECOMMENDATIONS                    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 13

COMMENTS ON THE DRAFW REPORT                                . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 15

APPENDICES


Z& Nonrespondent       Analysis        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-l


B:
 Summary of Mail Survey Results                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..B-1


c   Complete Comments onthe Draft Report                         . . . . . . . . . . . . . . . . . . . . . . . . . . C-1


D:
 Notes   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..D-1

              EXECUTIVE                          SUMMARY


PURPOSE

This study describes the early experiences of healthcare organizations in using clinical
practice guidelines sponsored by the Agency for Health Care Policy and Research.

BACKGROUND

Over 70 organizations, including Federal agencies, medical professional associations,
health insurance associations, and health maintenance organizations, have sponsored
approximately 1800 clinical practice guidelines. The Agency for Health Care Policy
and Research (AHCPR) has released sixteen guidelines. Of the $154 million
appropriated for AHCPR’S fiscal year 1994 programs, $5 million was spent on
developing and updating guidelines, and $10 million on dissemination and evaluation.
Of this, approximately $4 million was spent on printing and disseminating guidelines.

The introduction of new technologies, including new clinical practice guidelines, can be
a slow and difficult process. We prepared this report in response to AHCPR’S interest
in gaining a better understanding of the extent to which, and the manner in which,
healthcare organizations have been using its guidelines.

We conducted a mail survey of 380 key U.S. healthcare organizations, including 150
nursing homes; 150 small, nonteaching hospitals; and 80 health maintenance
organizations that have staff-model components. We focused on these organizations
because they offer prime opportunities for use of the AHCPR guidelines. Sixty-four
percent responded. Our survey focused on the first six AHCPR guidelines released
between March 1992 and April 1993: pain management, urinary incontinence,
pressure ulcer prevention, cataracts, depression, and sickle cell disease.

FINDINGS

llventy pement of the survey respondents reprted that they have wed I or more of the 6
AHCPR guidelines about which we inquii~ an addtionul 12 punt         reprted that they
plan to do so.

  �	   Impetus for using the guidelines has frequently come from the organizations’ internal,
       quality-improvement programs. External factors--such as directives from supervising
       organizations and State law requirements--have also played an important role.

  �	   The organizations’ expectations of guideline use have focused on improved
       clinical care. Many organizations have also viewed the guidelines as a means of
       reducing costs and providing better protection from malpractice litigation.




                                             i
  .	   The reasons most often cited for not having used the guidelines were that the
       organizations were not familiar with them (40 percent of all survey
       respondents) and the organizations have their own guidelines (34 percent of all
       sumey respondents). No organizations cited disagreement with the guidelines
       as a basis for not having used them.

Ninety-sir pement of the su.rwy resyxmdknfi that have used 1 or more of the 6 AHCPR
guidiliizes reprted that their #Torts to do so have focused on clinicians; 36percent
reprted that they huve directed guideline-irnplementzition #orts towanik patients.

Clinician-Directed    Efforts

  .	   Clinician-education efforts--ranging from the distribution of guideline materials
       to the conduct of educational programs--were the most frequently reported
       means of implementing the guidelines. Such efforts were reported by most
       guideline users.

  .	   The development of an algorithm, policy and procedure, or other
       implementation tool to guide clinician practice was also reported by most
       guideline users.

  .	   Economic incentives to encourage clinicians to provide guideline-recommended
       care were reported by very few organizations.

Patient-Directed     Efforts

  .	   The distribution of guideline materials to patients was the most frequently
       reported patient-directed effort.

  �    Educational     sessions for patients were reported by some organizations.

At this ear&point in the irnpkmentation process, only 8 percent of the respondents that
have used 1 or more of the 6 AHCPR guidelines reported that they have measured the
efects of their guideline use.

  .	   These measures have focused on patients’ clinical outcomes and clinicians’
       performance. They have been based, primarily, on chart and record reviews.

Sixty-three percent of the respoti that reptied huving used 1 or more of the 6
AHCPR guidklinix also reprted having encountered obstacles to doing so.

  .	   Uncertainty about how to implement the guidelines was the most frequently
       cited obstacle to use.




                                              ii
  .	   Clinician resistance was the second most frequently cited obstacle. We learned
       that physicians have been concerned about what they have perceived to be
       cookbook medicine and that nurses have been concerned about what they have
       anticipated would result in increased administrative and patient care workloads.

RECOMMENDATIONS

% l%blic Health Service (PHS), through AHCP~ should &terrnine more efective ways
to pmnote famdimity with and use oj the guidelines.

The AHCPR reports that its guidelines were distributed to every hospital and nursing
home in our sample population. Of all those in leadership positions that we surveyed
in small, nonteaching hospitals; nursing homes; and HMOS with staff-model
components; 80 percent reported that their organizations had not used the AHCPR
clinical practice guidelines and 40 percent were unfamiliar with the guidelines.

We recognize that introducing new clinical practice guidelines, like any effort to
introduce systematic changes in the delivery of healthcare, poses challenges. A
reconsideration of AHCPR’S efforts to promote familiarity with, and use of, the
guidelines could yield more effective approaches to meeting these challenges.

The PHS, through AHCP~ shouki make increased technical supp~ avaikzble to
guideline Usem                                               .

Our findings demonstrate that most organizations that have used the AHCPR
guidelines have encountered obstacles to doing so. Many organizations reported that
uncertainty about how to use the guidelines has been an obstacle. Other frequently
noted obstacles include resistance from physicians and nurses, an inability to measure
compliance with the guidelines, and an inability to measure the effects of guideline
use. To facilitate the use of the AHCPR guidelines, the PHS, through AHCPR,
should strengthen its capacity to advise those organizations that are encountering
obstacles. For example, the Agency could:

  �	   identi~ and disseminate benchmarking practices of those organizations that
       have overcome obstacles and made effective use of guidelines; and/or

  .	   build on its current programs and conduct training/technical assistance sessions
       in which representatives of healthcare organizations can learn more about the
       guidelines and how to use them effectively.

l’he PHS, through AHCP~ shouki develop and irnpkment ystematik rnechaniwns for
obtaining objective feedback about guideline use. As pat of tfi efo~ AHCPR should
sponsor regular surveys of healkare oganuations. We surveys shouki be dksi@ed to
p&e       pmjectable indicatom that albw AHCPR to gauge changes over the k the
tixtent of gukidine use.



                                            .,.
                                            111

Although AHCPR collects some information about the use of specific guidelines, it has
not yet incorporated into its regularly scheduled activities efforts to gather information
on the frequency with which AHCPR guidelines are used or user-feedback information
from those organizations that have experience with the guidelines. To better support
the Agency in its efforts to gauge the level of guideline use and to continuously
improve the quality of its guidelines, the PHS, through AHCPR, should incorporate
systematic efforts to gather objective information about guideline use into its ongoing
responsibilities.

To complement this important research, AHCPR could conduct other types of
ongoing efforts designed to provide information about users’ experiences with the
AHCPR guidelines and changes over time in the users’ experiences. For example, the
Agency could:

  �	   conduct regular surveys of organizations that have requested the guidelines to
       obtain feedback about their experiences with, and assessments of, the guidelines;

  �	   conduct regular telephone interviews with select “key users” to obtain more in-
       depth feedback; and/or

  �    attach user-feedback forms to all guidelines that are disseminated.

We hope that our report till provide information that is useful to AHCPR in the near
term as it considers ways to facilitate the implementation of its guidelines. We also
hope to provide useful information for organizations that are seeking ways to benefit
from guideline use, and for Congress as it considers AHCPR’S future efforts. A
companion report, Early Experiences with Clinical Practice Guidelines Sponsored by the
Agenq for Health Care Policy and Research: Case Descriptions (OEI-01-94-O0251),
presents short case descriptions that illustrate the experiences of several organizations
with the AHCPR guidelines.

COMMENTS ON THE DRAFT REPORT

We solicited and received comments on our draft report from the Public Health
Service (PHS). The full text of these comments is included in appendix C.

The PHS offered technical comments on our draft report and these were considered
as we developed the final report. Below we address the key elements of the PHS
general comments on our findings, methodology, and recommendations.

llndings: The PHS characterized our first finding--that 32 percent of the survey
respondents reported that they have used, or plan to use, 1 or more of the AHCPR
guidelines about which we inquired--as extremely encouraging. We recognize that
introducing new clinical practice guidelines is a challenging endeavor, but found no
guidance in the scientific literature for determining what level of use constitutes



                                            iv
success. The AHCPR has not yet established benchmarks for guideline use or
quantified expectations against which to measure its success.

Methoddogy The PHS Stated that the types of organizations surveyed in our study
are not representative of all healthcare institutions. We agree. We continue to
believe, however, that these organizations are important components of this nation’s
healthcare delivery system and that clinical practice guidelines are relevant to the
provision of care in all three settings. We are considering additional research to
examine the use of clinical practice guidelines in other healthcare settings and
encourage AHCPR to do the same in our third recommendation.

Recomrnendutins:     In its comments on our recommendations, PHS cited various of its
current efforts that it regards as relevant to the recommendations. We recognize the
relevance and importance of a number of the activities cited by PHS.

We are concerned, however, about our third recommendation, in which we urge PHS
to develop and implement systematic mechanisms for obtaining objective feedback
about guideline use. This recommendation proposes regular surveys as an important
tool for continuous quality improvement. To clari~ the recommendation, we have
included in the recommendation statement information that was formerly presented in
the text supporting it.

We continue to believe that systematically collected feedback, gathered at regular
intervals, from current and potential guideline users, is a critical component of any
continuous quality improvement effort. This feedback can be used as a valuable
performance indicator addressing the degree of AHCPR’S success in facilitating the
use of, and familiarity with, its guidelines.

Our report finding--that 20 percent of survey respondents reported that they have
used 1 or more of the 6 AHCPR guidelines about which we inquired--provides a
baseline against which AHCPR can measure its progress in achieving greater
familiarity with, and use of, its guidelines.




                                            v
                             INTRODUCTION


PURPOSE

This study describes the early experiences of healthcare organizations in using clinical
practice guidelines sponsored by the Agency for Health Care Policy and Research.

BACKGROUND

Vatitions in Medical Bactice and Clinical hzctice       Guidelines

Variations     in clinical practice among different physicians and hospitals, and in different
geographic      areas have long been observed .1 With the growing awareness of these
variations,   concern has developed about adverse patient outcomes and financial costs
associated    with inappropriate medical care. Clinical practice guidelines have emerged
as part of    a larger effort to reduce unwarranted variations in care and the costs
associated    with them.

According to the Institute of Medicine, clinical practice guidelines are “systematically
developed statements to assist practitioner and patient decisions about appropriate
healthcare for specific clinical circumstances.”2 Such guidelines--and similar
materials--have been sponsored by a multitude of organizations, including the Agency
for Health Care Policy and Research (AHCPR), the Centers for Disease Control, and
the National Institutes of Health, all within the Public Health Service (PHS) in the
U.S. Department of Health and Human Services. The U.S. Preventive Services Task
Force, the Rand Corporation, medical professional associations, health insurance
associations, and health maintenance organizations have also developed guidelines.3

Guidelines address a broad range of topics and vary along several dimensions,
including the breadth of the topic addressed, the level of detail of care dealt with, the
extent to which the guideline is directive, the extent to which scientific evidence forms
the basis for guideline recommendations, the format in which the guideline is
presented, and the method by which the guideline is developed.

Guidelines have been used, or tested for use, in several different applications and to
achieve several different goals. The Office of Technology Assessment has reported
that clinical practice guidelines are being used in malpractice litigation and as a means
of reducing defensive medicine. 4 Primary-care providers--such as hospitals, health
maintenance organizations, and nursing homes--use guidelines in care provision and
quality assurance reviews. At least one managed healthcare provider--with networks
in 36 States--is testing the use of computer technology that allows physicians instant
access to clinical practice guidelines, including those sponsored by AHCPR.5 At least
one health maintenance organization has developed a typology of guideline
implementation methods.b



                                                1

lhe Agency for Health Care Policy and Reseaxh

The Omnibus Budget Reconciliation Act of 1989 (P.L. 101-239) established AHCPR
as the successor to the former National Center for Health Services Research and
Health Care Technology Assessment. Congress assigned the new Agency the
responsibility to enhance the quality, appropriateness, and effectiveness of healthcare
services and access to such services, through the promotion of improvements in clinical
practice and in the organization, financing, and delivery of healthcare services.7

As part of its activities to fulfill its mandate, the Agency arranges for the development
and distribution of clinical practice guidelines.8 To date, the Agency has released
sixteen guidelines--and each is produced in several formats, including the full-length
clinical practice guideline, a quick reference guide for clinicians, and patient guides.g

To develop the guidelines, the Agency convenes independent, multidisciplinary panels
of private-sector clinicians and other experts that collaborate over an extended time
period. The panels apply explicit, science-based methods to develop specific
statements related to the diagnosis, treatment, and management of the clinical
condition under consideration. In instances in which the scientific literature is
incomplete or inconsistent, the professional judgment of the panel members and
consultants is reflected in the guideline.l”

The AHCPR employs a multi-pronged strategy to disseminate its guidelines. In
addition to distributing all of its guidelines to the more than 10,000 organizations on its
master mailing list, the Agency works with the medical, trade, and lay media to
generate and place articles about guidelines. 11 It has established a toll-free,
guideline-request telephone line through the AHCPR publications clearinghouse and
has begun to make its guidelines electronically available through the National Library
of Medicine and the Internet. It also works with professional societies and commercial
organizations to reprint and further distribute guidelines. 12 Among its other
dissemination activities, the Agency conducts conferences for those interested in
learning more about guideline implementation and the experiences of those
organizations that have used AHCPR’S guidelines.13

Of the $154 million appropriated for AHCPR in 1994, $81 million was dedicated to
the Agency’s Medical Treatment Effectiveness Program. Approximately $5 million of
this sum was spent on the development and updating of guidelines and approximately
$10 million was spent on dissemination and evaluation efforts. Of this, approximately
$4 million was spent on printing and disseminating guidelines.14

Concerns about Clinical Practice Guidelines

An increasing number of organizations--including healthcare providers, health insurers,
State governments, and medical professional associations--have become involved in the
development of clinical practice guidelines; and an increasing number of clinicians
have become aware of them.
The introduction of new technologies, however--including new clinical practice
guidelines--can be a slow and difficult process. 15 In research supported by AHCPR
and other organizations, and in conferences about clinical practice guidelines, barriers
have been identified to the greater acceptance and more extensive use of
guidelines.lb Such barriers include confusion about how best to use guidelines;
resistance from administrators, clinicians, and/or patients; administrative, bureaucratic,
and/or technological problems in either preparing for or adhering to guidelines; the
expense of guideline implementation; and limitations in organizations’ ability to
measure compliance with guidelines and the effects of guideline implementation.

THE OBJECTIVES        OF THIS REPORT

The AHCPR already supports many projects to evaluate the development and
dissemination of its clinical practice guidelines. In addition, the Agency sponsors
research on broader questions related to guidelines and their use.17 Many of these
projects are multi-year, long-term efforts. We prepared this report in response to the
agency’s interest in gaining a better understanding of the extent to which, and the
manner in which, healthcare organizations have been using its guidelines.

We hope that our study will yield information that is useful to AHCPR in the near
term as it considers ways to facilitate the implementation of its guidelines. We also
hope to provide useful information for organizations that are seeking ways to benefit
from guideline use, and for Congress as it considers AHCPR’S future efforts.
Accordingly, this report describes how organizations have used AHCPR clinical
practice guidelines and illustrates ways that other organizations might use them. We
do not evaluate the effectiveness of guideline use, test differences among various types
of organizations’ guideline use, or distinguish the strengths and weaknesses of specific
AHCPR guidelines, Furthermore, we do not evaluate AHCPR’S dissemination efforts,
its internal processes for developing or disseminating guidelines, or its processes for
evaluating guideline use.

The report provides initial estimates of three dimensions of guideline use: (1) the extent
to which healthcare organizations use the guidelines, (2) the ways in which organizations
use the guidelines, and (3) the obstacles that organizations have encountered in their
efforts to implement the guidelines. A companion report, Ear& Experiences with Clinical
Practice Guidelines Sponsored by the Agency for Health Care Policy and Research: Case
Descriptions (OEI-01-94-00251) presents a series of short case descriptions that illustrate
the experiences of several organizations with the AHCPR guidelines.

METHODOLOGY

Our report is based on data from two primary sources. First, to develop initial
estimates of guideline use, we conducted a mail survey of three types of healthcare
provider organizations--150 randomly selected nursing homes, 150 randomly selected
nonteaching hospitals with no more than 100 patient beds, and all 80 of the health
maintenance organizations (HMOS) with staff-model components. The hospital and
nursing home samples were drawn from the Health Care Financing Administration’s
On-line Survey Certification and Report (OSCAR) System. The HMO sample was


                                             3
taken from the report of the most recent HMO survey conducted by the American
Managed Care and Review Association (AMCRA) Foundation.

We included nonteaching hospitals in our sample because we anticipated that they
would be more likely to use existing guidelines, such as those sponsored by AHCPR,
than to develop their own. 18 We further defined our hospital sample to include only
those nonteaching hospitals with no more than 100 beds because we anticipated
methodological difficulties in obtaining mail-survey responses from the appropriate
staff in large hospitals with many, large, specialized departments.

We included HMOS with staff-model components in our survey because HMOS
represent a trend towards managed care. In addition, staff-model HMOS, because
they employ physicians directly and exclusively, are probably better able than
independent-practice/physician    association HMOS, network-model HMOS, or group-
model HMOS to influence the provision of care to their patients. Accordingly, we
anticipate that staff-model HMOS, more than the other HMO models, might seek to
use clinical practice guidelines.

Sixty-four percent of our sample completed and returned the survey. Our analysis of
those organizations that did not respond to the survey indicates that, for those
variables considered, our results are unbiased with respect to differences between
respondents and nonrespondents (see appendix A for more information on the
nonrespondent analysis). The survey instrument focused on the organizations’ use of
the first six AHCPR guidelines that were released between January 1, 1992 and
January 1, 1994. Th~se                                              B for a summary of
the survey results).




Second, to increase our understanding of the organizations’ experiences with the
AHCPR guidelines, we conducted telephone interviews with half of the survey
respondents that reported guideline use.

We conducted our review in accordance with the Quali~ Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                           4

                                  FINDINGS


Twenty percent of the survey respondents reported that they have used 1 or more of

the 6 AHCPR guidelines about which we inquire~ an additional 12 pereent reported

that they plan to do so.


Of the 243 organizations that responded to our questionnaire, 49 (20 percent)

reported that they had used at least 1 of the 6 clinical practice guidelines that AHCPR

released between January 1, 1992 and January 1, 1994.19 An additional 28 (12

percent) indicated that, although they have not yet used any of the 6 AHCPR

guidelines, they intend to do so. Several of these organizations indicated that they are

in the early phases of developing guideline implementation plans and programs.n


Thirty-seven (76 percent) of the 49 AHCPR guideline users reported having used

more than 1 of the AHCPR guidelines. Pressure Ulcers In Adults (prevention), Urinary

Incontinence in Adults, and Acute Pain Management were the guidelines most

frequently used.21 Thirty-two (65 percent) of the AHCPR guideline users reported

that they had also used guidelines sponsored by other organizations to address

AHCPR guidelines topics.


    �	   Imptus for using the guidelines has frequently come ~m the organizations’
         hterna~ qua@y-hpnwment       programs. External facton--such as directiws @m
         supervking o~anizations and State regukitory requirements--have also plkyed an
         important rule.

Internal Factors: Quality-improvement initiatives were cited as having contributed to
the decision to use ~CPR      guidelines by 41 (84 percent) of the user organizations.
Examples of the ways in which internal factors have contributed to the decision to use
the AHCPR guidelines include the following:

� One hospital incorporated     two of the guidelines into a program for evaluating
physicians’ clinical performance.

�  Another hospital decided to use a guideline after the death of a patient who had
been admitted with severe pressure ulcers.

� A nursing home adopted a guideline after a product sales representative      provided
three copies of the guideline and suggested that the home use it.

External Factors: An external factor was cited as having contributed to the decision to
use the AHCPR guidelines by 22 (45 percent) of the user organizations. Examples of
the ways in which external factors have contributed to the decision to use the AHCPR
guidelines include the following:




                                             5

F Eight nursing homes adopted one of the guidelines in response to deficiency
citations from State nursing home surveyors or in response to the homes’ concerns
about meeting survey standards.

�  An HMO began using a guideline because the Medicare Peer Review Organization
(PRO) recommended adherence to the guideline as a means of resolving a patient
complaint.

E Two nursing homes decided to use two guidelines because their parent companies
encouraged them to do so.

    �	   The o~anizations’ expectations of guidkline use have focused on iinpnnwd cllnical
         care. Many have aiko vikwed the guidelines as a means of reduciizg costs and
         providing better protection jiorn rnu@actice litigation

Improved Clinical Care: Forty-seven (96 percent) of the users reported that they have
expected the AHCPR guidelines to help them achieve at least one goal related to
improved clinical care. Such goals ranged from improved clinical outcomes for
patients, to reduced uncertainty among clinicians about appropriate care for patients,
reduced variation in clinical decision-making, and increased patient satisfaction.

Other Goals: Twenty-five (51 percent) of the user organizations reported having
expected to reduce costs associated with clinical care. Twenty (41 percent) reported
that they have expected to achieve better protection from malpractice litigation.

    �	   lhe reasom most often cited for not havhg used the *W             were that the
         organizations were not familiar &h them and the oqynizations have their own
         guidelines. No organizations cited dikagreernent with the guideti     as a bti for
         not having used them.

One-hundred and ninety-four (80 percent) of all respondents to our survey indicated
that they have not used any of the six AHCPR guidelines. Although 16 (8 percent) of
them indicated that these guidelines are not clinically relevant for their institutions,
none of the organizations indicated disagreement with the care recommended in the
AHCPR guidelines.

Lack of Familiarity: Ninety-seven respondents--50 percent of the nonusers (and
40 percent of all respondents) --reported that they were not familiar with the
guidelines.z2 In their comments on the mail survey, 27 (14 percent) of the nonusers
requested copies of the AHCPR guidelines and/or expressed an interest in learning
more about them.

Other Guidelines: Eighty-two respondents--42 percent of the nonusers (and 34 percent
of all respondents) --reported that they have their own guidelines. Thirty-four
respondents--18 percent of the nonusers (and 14 percent of all respondents) --reported
that they use guidelines developed by an organization other than AHCPR.


                                               6
Ninety-six pereent of the survey respondents that have used 1 or more of the 6
AHCPR guidelines reported that their efforts to do so have focused on clinici~,
36 percent reported that they have directed @deline-implementation          efforts towards
patients.

Clinician-Directed Efforts

    �	   Clinician-education @o*-ranging@m       thq distribution of guidellne matetitzik to
         the condkct of t?ducatz%malprograms--werethe most frequently repited means of
         irnpkmentihg the guiiiklihes. Such #ens were reprted by most guideline usem

Forty-two (86 percent) of the guideline users reported at least one educational effort

directed at clinicians. Most frequently cited was the distribution of AHCPR guideline

materials to clinicians, which was reported by 28 (57 percent) of the users.~

Examples of the ways in which organizations have distributed AHCPR guideline

materials include the following:


�   One nursing home put up posters summarizing the guideline on each of its units.

F An HMO distributed to physicians its own summary of the AHCPR guideline.

E At another HMO, copies of the guideline materials were distributed at meetings of
the medical and nursing staff.

�   A hospital distributed copies of the guideline to each of its nurses, physicians, and
physician assistants, placed additional copies at the nursing station and in the hospital
library, and circulated a hospital-wide memorandum announcing the availability of all
of the guidelines.

Educational programs have been offered by 24 (49 percent) of the users. Such
programs have involved train-the-trainer efforts, in-service activities, and self-study
video tapes. Examples of the ways in which organizations have used the guidelines in
these efforts include the following:

F A nursing home sent nurses to off-site classes on a guideline. These nurses then
provided training for other staff on the recommended diagnostic and care techniques.

�  A hospital hosted a product-sales company’s full-day training session for nurses and
luncheon lectures for physicians on guideline-recommended care.

� Another hospital conducted a series of five, mandatory, in-service training sessions

for its nurses.

�  A nursing home hired a consultant to train small groups of nurses about the
guideline recommendations.
b   A hospital used a privately produced video series explaining the guideline to train
its nurses and nursing assistants.

In addition, 14 (29 percent) of the users reported that they provided feedback to
clinicians about the extent to which their care conforms to guideline recommendations.
At most organizations, this feedback has been provided informally, either to
individuals or to staff-meeting groups. A few organizations, however, have provided
more formal feedback to their clinicians:

E A hospital has provided feedback to clinicians in reports that note variances
between the guideline-recommended care and that provided by clinicians.

* A nursing home has displayed weekly charts for each of its units documenting
success rates in managing the guideline condition; the home also has run a weekly
contest (with prizes) among the units to encourage staff to better manage the
condition.

    �	   The dkveloprnent of an algorit~ polky and pmcedurq or other impbnentation
         tool to@& clinician practice was aiko reprted by most guidkline usem

Thirty-six (73 percent) of the users reported having made at least one administrative
effort to implement the guidelines. Most often, organizations adapted the guidelines
for their own use by developing an implementation tool: 31 (63 percent) of the users
reported such an effort.

E At one hospital, a multidisciplinary task force worked over the course of six
months to incorporate the guideline recommendations into existing policy and
procedures and to develop an algorithm for patient care corresponding to the
guideline.

> At a nursing home, over the course of a month, the director and assistant director
of nursing revised the home’s existing policy and procedures to reflect the guideline;
the medical director approved the new draft.

� A manager at another hospital developed a two-page summary of the guideline,
which the hospital physicians and governing board then approved.

� Another hospital collaborated   with an area-wide group of care providers over the
course of a year to adapt the guideline for a uniform standard of community care.

Other administrative efforts to implement the guidelines have included the use of
automated computer systems that reflect guideline recommendations, U changes to
clinician-patient encounter forms, changes to lab- or test-order forms, and
retrospective reminders for clinicians .X Twenty-five (51 percent) of the users
reported having made at least one such effort. Examples include the following:



                                            8

� A hospital has used its computerized   patient-care system to suggest appropriate
care for treatment of the guideline condition and to allow monthly reviews of clinician
compliance with guideline recommendations.

�   Another hospital implemented a five-point, self-reported pain-scale for adults and a
five-point color scale, on which red represents the most severe pain and white
represents the absence of pain. The color scale has been useful with children.

�  Two hospitals developed new clinician-patient encounter forms to be used on a
daily basis for assessment of the guideline condition.

� Another hospital developed a new culture-order form with expanded order options
for the guideline condition.

�  Three organizations instituted charting systems to help nurses remember to adhere
to guideline recommendations.

    �	   Ecommu”c incentives to encourage chicians to pmvkle guitkline—recommended
         care were reported by very fw o~anizations.

Only three organizations (6 percent) reported that they have used economic incentives
to encourage clinicians to provide guideline-recommended care. Two of these
organizations implemented changes in reimbursement policy. In one HMO, clinicians
who fail to provide the guideline recommended care risk losing their care provider
contracts with the HMO.

Patient-Directed Eftorts

    �    l%e dWibution of guideline material to patierm was the mostjhquently repotied
         patientdi.rected ejfott and was reprted by 12 (24 pement) of the usem
         Educational s&ns for patients were reported by 9 (I8 penxmtj of the mers.

Most users reported that they have not directed efforts to implement the guidelines
towards patients. Some users explained that their patients are unable to help
implement the guidelines because of physical and/or mental limitations. A few
organizations anticipated that they would attempt patient-directed efforts in the future.
Examples of ways in which the AHCPR guidelines have been used with patients
include the following:

�  An HMO developed an article for its patients’ newsletter about the organization’s
new policy for treatment of the guideline condition; the article invites patients to call
for additional information.

�   A hospital implemented    a new emergency room form that explains its policy for
treatment   of the guideline condition.



                                             9

� Another hospital has provided educational sessions on the guideline condition for

its patients and for visitors to senior centers and health fairs.

E A nursing home has explained the guideline recommendations      to those of its at-risk
residents who are able to participate in their own care.

F A nursing home and a hospital have both distributed guidelines to patients and
their families when the patients have been discharged for home care.

�   A hospital and a nursing home have used the guideline in home-health  classes to
educate both patients and their families about prevention and care of the guideline
condition.

At this early point in the implementation process, only 8 percent of the respondents
that have used 1 or more of the 6 AHCPR guidelines reported that they have
measured the effects of their guideline use.

The first AHCPR guideline was issued in March 1992; two others were issued in that

year. The remaining three guidelines about which our survey inquired were issued in

1993. Although most of our survey respondents are in the early stages of

implementing the guidelines, four reported that they have evaluated the effects of

their guideline use. An additional four organizations that we interviewed reported that

they have measured or plan to measure the effects of their guideline use.


    9   l%ese measures have f~ed  on patients’ clinkal outcomes and clinicians’
        pe@onnance. Thqv have been based prirn@v on chart and reconi revhvs.

The organizations have assessed both clinicians’ performance and patients’ clinical
outcomes. A few organizations have also measured patient satisfaction; a few have
taken organization-wide measurements of the effects of their guideline
implementation.    Below are examples of the assessments that have been made.

�   A hospital has used its computerized   patient-record system to assess how care was
provided and patient outcomes. In addition, the hospital has conducted post-discharge
patient-satisfaction surveys. These reviews documented increased compliance with the
guidelines and increased patient satisfaction.

� A nursing home has conducted weekly record reviews, which have demonstrated          a
decrease in the incidence and severity of pressure ulcers.

�  An HMO is planning to conduct an audit of clinician compliance with the guideline
in the care of all patients treated for cataracts. The HMO also plans to collaborate
with its PRO to review claims data for a random selection of patient records.




                                           10

E A coalition of hospitals and nursing homes took base-line measurements of the
incidence of the guideline condition in several facilities. The coalition plans to take
comparison measurements in these facilities six months after the implementation of
the guideline and one year after that.

� A nursing home’s quality assurance program has involved seven annual, in-depth

surveys of care and patient status, and one annual, in-depth review by the parent
company. Reports of all of the reviews, which address care for the guideline
condition, are evaluated by the regional administrator and the corporate specialist on
the guideline topic.

> Another home has conducted quarterly assessments of patient outcomes for the
guideline condition. This home’s parent company has also provided an annual peer
review which addresses care provided for this condition.

> Another hospital has conducted quarterly studies to assess how care is provided and
patients’ clinical outcomes.

Sixty-three percent of the respondents that reported having used one or more of the
six AHCPR guidelines also reported having encountered obstacles to doing so.

Although there are many examples of guideline implementation ((see Eady
Experiences with Clinical Practice Guidelines Sponsored by the Agency for Health Care
Policy and Research: Case Descriptions (OEI-01-94-00251)), introducing new clinical
practice guidelines, like any effort to introduce systematic changes in the delivery of
healthcare, poses challenges.

  �	   Unmtainty about how to implement the guidelines was the most jkquently cited
       obstacle to use.

Twenty-one (43 percent) of the guideline users reported that such uncertainty was an
obstacle to their use of the guidelines. Many of the organizations that we interviewed
struggled over the development of a plan to implement the guidelines. Examples of
organizations’ uncertainty about how to implement the guidelines are summarized
below.

� A nursing home’s staff has found it difficult to read and understand the entire
guideline. The home has sought out seminars that address the guidelines to resolve
this problem.

E Uncertainty about how to use a diagnostic tool recommended by the guideline
hampered one hospital’s implementation program. This hospital contacted AHCPR
for further guidance.

� For another hospital, confusion about the extent to which it need comply with the

guideline slowed the implementation process.
� Another hospital was initially confused about how to implement the guidelines and

found that other hospitals were unable to provide assistance because they were
unfamiliar with the guidelines.

� Another hospital reported that the guidelines are “very general.” Adapting them for
local use--by making them more specific--required a considerable investment of both
time and money.

E Developing a strategy for ensuring staff compliance with the guideline
recommendations was a time-consuming challenge for another hospital.

  �    Clinician resistance was the second most fhquently cited obstacle.

Clinician resistance was reported by 16 (33 percent) of the guideline users. Physicians’
primary concern, according to those we interviewed, has been their perception that the
guidelines are “cookbook medicine.” Nurses have been concerned that the guidelines
would result in increased administrative and patient care workloads. Examples of
clinician resistance to the guidelines are summarized below.

� A nursing home and two hospitals reported that several of the physicians resented

what they perceived to be government interference in their work.

> A nursing home’s staff initially resisted the new policy and procedures because they
anticipated that these would result in “too much work.” Some nurses continued to
refuse to comply, but, according to the Director of Nursing, most learned that the new
rules ultimately result in less work.

> Three nursing homes and a hospital all noted that any change in prescribed practice
is always difficult for clinicians and that staff training is a gradual and continuing
project.

Other obstacles to guideline use that were noted by survey respondents include an
inability to measure compliance with the guidelines, an inability to measure the effects
of guideline use, and the expense of guideline implementation.




                                            12

                   RECOMMENDATIONS


% RMc Heakh Service (PHS), through AHCP~ shouiii deternuke more @ective ways
to promote farnilidy with and use 0$ the guidelines.

The AHCPR reports that its guidelines were distributed to every hospital and nursing
home in our sample population. Of all those in leadership positions that we surveyed
in small, nonteaching hospitals; nursing homes; and HMOS with staff-model
components; 80 percent reported that their organizations had not used the AHCPR
clinical practice guidelines and 40 percent were unfamiliar with the guidelines.

We recognize that introducing new clinical practice guidelines, like any effort to
introduce systematic changes in the delive~ of healthcare, poses challenges. A
reconsideration of AHCPR’S efforts to promote familiarity with, and use of, the
guidelines could yield more effective approaches to meeting these challenges. As
AHCPR itself has noted, “the term ‘effective dissemination’ includes the concept of
diffusion of knowledge and information as well as the acceptance, inculcation, and
utilization of disseminated information... distribution of information alone is
insufficient to ensure adoption or use.”x

The PHS, through AHCP~ should make increased technical support availizble to
guliii?h%eUsem

Our findings demonstrate that most organizations that have used the AHCPR
guidelines have encountered obstacles to doing so. Many organizations reported that
uncertainty about how to use the guidelines has been an obstacle. Other frequently
noted obstacles include resistance from physicians and nurses, an inability to measure
compliance with the guidelines, and an inability to measure the effects of guideline
use. To facilitate the use of the AHCPR guidelines, the PHS, through AHCPR,
should strengthen its capacity to advise those organizations that are encountering
obstacles. For example, the Agency could:

  �	   identi~ and disseminate information on the benchmarking practices of those
       organizations that have overcome obstacles and made effective use of
       guidelines; and/or

  .	   build on its current programs and conduct training/technical assistance sessions
       in which representatives of healthcare organizations can learn more about the
       guidelines and how to use them effectively.27




                                           13

7ZWPHS, through AHCP~ shouki dkveibp and implement systematic mechati            for
obtahing objective feedback about guidklike use. AS part of this #ofl AHCPR should
sponsor reguku surveys of heakhcare o~anizations. We SLUVeyS      shouki be desi@wd to
=:f@?Z~WY                     that allbw AHCPR to gauge changes over time m the
                      .

Although AHCPR collects some information about the use of specific guidelines, it has
not yet incorporated into its regularly scheduled activities efforts to gather information
on the frequency with which AHCPR guidelines are used or user-feedback information
from those organizations that have experience with the guidelines. To better support
the Agency in its efforts to gauge the level of guideline use and to continuously
improve the quality of its guidelines, the PHS, through AHCPR, should incorporate
systematic efforts to gather objective information about guideline use into its ongoing
responsibilities.

To complement this important research, AHCPR could conduct other types of
ongoing efforts designed to provide information about users’ experiences with the
AHCPR guidelines and changes over time in the users’ experiences. For example, the
Agency could:

  �	   conduct regular surveys of organizations that have requested the guidelines to
       obtain feedback concerning their experiences with and assessments of the
       guidelines;

  �	   conduct regular telephone interviews with select “key users” to obtain more in-
       depth feedbaclq and/or

  �    attach user-feedback forms to all guidelines that are disseminated.




                                            14

 COMMENTS                     ON THE              DRAFT              REPORT


We solicited and received comments on our draft report from the Public Health
Service (PHS). The full text of these comments is included in appendix C of this
report, The PHS offered technical comments on our draft report, and these were
considered in the development of our final report. Below, we respond to some of the
key elements of the PHS general comments on our findings, methodology, and
recommendations.

FINDINGS

The PHS characterized our first finding--that 20 percent of the sumey respondents
reported that they have used 1 or more of the AHCPR guidelines about which we
inquired and that an additional 12 percent reported that they plan to do so--as
extremely encouraging, given the context of traditional rates of diffusion of new
information into health care practice.

We recognize that introducing new clinical practice guidelines is a challenging
endeavor, but found no guidance in the scientific literature for determining what level
of use constitutes success. The AHCPR has not yet established benchmarks for
guideline use or quantified expectations against which to measure its success.

METHODOIXIGY

The PHS stated that the types of organizations surveyed in our study are not
representative of all healthcare institutions. The PHS suggested that, to obtain a
complete picture, additional types of providers should be surveyed.

We continue to believe that small teaching hospitals, staff-model HMOS, and nursing
homes are significant components of this nation’s healthcare delivery system and that
clinical practice guidelines are relevant to the provision of care in all three settings.
We agree that guidelines are relevant to healthcare delivery in other organizations. In
response to PHS’S concern about obtaining a complete picture, we are considering
additional research to examine the use of ~linical practi~e guidelines in additional­
healthcare settings and encourage AHCPR to do the same in our third
recommendation.

RECOMMENDATIONS

The PHS concurred with each of the three recommendations presented in our draft
report. In each case, PHS cited various efforts that it has underway that it regards as
relevant to the recommendations.    We recognize the relevance and importance of a
number of the activities cited by PHS.




                                           15

We are concerned, however, about our third recommendation,   in which we urge PHS
to develop and implement systematic mechanisms for obtaining objective feedback
about guideline use. This recommendation proposes regular surveys as an important
tool for continuous quality improvement. To clari~ that recommendation, we have
included in our recommendation statement information that was formerly presented in
the text supporting it.

We continue to believe that systematically collected feedback, gathered at regular
intervals, from current and potential guideline users, is a critical component of any
continuous quality improvement effort. This feedback can be used as a valuable
performance indicator addressing the degree of AHCPR’S success in facilitating the
use of, and familiarity with, its guidelines.

Our report finding--that 20 percent of the survey respondents reported that they have
used 1 or more of the 6 AHCPR guidelines about which we inquired--provides a
baseline against which AHCPR can measure its progress in achieving greater
familiarity with, and use of, its guidelines.




                                           16

                                  APPENDIX                      A


                                 NONRESPONDENT         ANALYSIS

An important consideration with research based on surveys of the type we have
conducted is the bias that may be introduced into the results if the nonrespondents
differ from survey respondents in systematic ways. To test for the presence of bias, we
obtained information from AMCRA on the HMOS to which questionnaires were sent.
In addition, we obtained information from the OSCAR file for all nursing homes and
hospitals to which questionnaires were sent.

Because the samples for HMOS, hospitals, and nursing homes were selected from
different sampling frames, a separate nonrespondent analysis was performed for each
of these groups. The variables used in the analysis for HMOS were the number of
lives covered and the percentage of the HMO practice that was staff model. For both
hospitals and nursing homes, the variables used were size (number of patient beds)
and type of ownership (profit vs. nonprofit).

For HMOS, the t-statistic was used to compare means for each of the two variables for
respondents vs. nonrespondents.    For hospitals and nursing homes, the t-statistic was
used to compare the mean number of patient beds. The Chi-square statistic was used
to test differences by type of ownership.

The results are presented in the tables below. Our analysis of those organizations in
the sample who did not respond indicates that our results are unbiased with respect to
the variables considered.

                                                HMos

                                     T-TESTFORSIZEOF HMO
                                           N            Mean         S.E. of Mean
              Respondents                  47          110,239          18,864
              Nonrespondents               33          66,804           16,251

t= 1.649       prob > t= .103



                   T-TESTFORPERCENTOF HMO PRACTICETHATWASSTAFFMODEL
                                      N                Mean           S.E. of Mean
         Respondents                  47               61.80             4.747
         Nonrespondents               33               70.39             5.834

t   = 1.147     prob > t= .255


                                                A-1
                                                      HOSPITALS

                               T-TESTFORNUMBEROFPATIENTBEDSINHOSPITAL
                                                 N                  Mean                S.E. of Mean
         Respondents                             101                51.62                    2.595
         Nonrespondents                          49                 51.41                    3.557

t=   0.048 prob > t= .962


                                 CHI-SQUAREFORTYPEOF HOSPITALOWNERSHIP
                               Respondents             Nonrespondents              Total               % Respond
 Non-Profit                      49 (49%)                 25 (51%)                   74                      66%
 Proprietary                        5 (5%)                 3 (6%)                       8                    62%
 Government                      47 (47%)                 21 (43%)                  68                       69%
 Overall                             101                       49                   150                      67%

CHI-SQ.=.22            DF=2




                                                 NURSING HOMES

                           T-TESTFORNUMBEROFPATIENTBEDSINNURSINGHOME
              1,
              IIRespondents                  I
                                                  N                 Mean            S.E. of Mean

              IINonrespondents               I
                                                  95
                                                  55
                                                           1
                                                                    126.95
                                                                    114.73
                                                                             I
                                                                                            8.725
                                                                                            8.488

t= 1.004           Prob > t= .317


                              CHI-SQUAREFORTYPEOFNURSINGHOMEOWNERSHIP
                               Respondents             Nonrespondents            Total              % Respond
     Profit                      62 (65%)                 43 (78%)                105                 5970
     Non-Profit                  33 (35%)                 12 (22%)                45                  73%
     Overall                         95                        55                 150                 63%

CHI-SQ= 2.768            DF= 1




                                                        A-2

                                   APPENDIX                    B

                             SUMMARY       OF SURVEY       RESPONSES




     All data presented in this appendix are derived from an OIG mail survey that was conducted in
     December of 1994.




                                                 B-1


—_
   T’abk..k AHcPR Maii %rvey and

   Telephone k-s-                           GpF~m

   Dist@mw fhlrveyRespondents,

   Ckideiine Users,md @I&~UH

   thatwere~      ,“

              –	           ~~~              ~pqp~i
   Surveys Distributed

 ~fibafi
  Survey Respondents
                                              101    67    95    ~~ ~~
  Respondents that Reported Use of the        19     @     ~fl   Q*
  AHCPR Guidelines*
  Guideline Users that we Intervkwed        ml17     AZ    1~




* We are 90 percent confident that the percentage of small, nonteaching hospitals that have
used the guidelines is between 12 and 25; that the percentage of nursing homes that have used
the guidelines is between 14 and 28; and that the percentage of HMOS with staff-model
components is between 11 and 31. For all organizations represented in our sample, we are 90
percent confident that the percentage that have used the guidelin~ is between 16 and 24.




                                           B-2

                                                 Hiiidk

 Tabk 2 ‘llm oumbm and.pimxmtageof
 urganizkwionstit cited tkf@km@g:factoris
 iq having contri%uted:tatheir dixisi~ to
 m“the maw        @idelines!
-+



 a. State law requirements                         2     10    9    45    2     20     13      26’
 b. Insurance requirements                         15151                        1036
 c. A directive from a supervising or              3     16    10   50    3     30     16      33
 overseeing organization
 d. Your organization’s internal, quality-         17    9(I   14   ’70   10   100     41      w
 improvement initiative
 e. OTHER factors                                  3 ’16       2    10    2     20     7       14
                                                 BIIE




   ‘In this and in following tables, as noted: because respondents checked as many items as
were appropriate in response to the question, the columns total more than 100 percent.

    ‘In this and in following tables, as noted: total percentages are sometimes more or less
than 100 due to rounding.


                                             B-3
                                                 ~L__L_—J~~


a. Increased patient satisfaction                   17    90   11   55   6    60    34   69
b. Improved clinical outcomes for patients          17    90   18   90   9    90    44   90
c.	 Reduced uncertaintyamong clinicians             16 “84     13   65   9    9(3   38   ’78
about appropriate care for patients
d. Reduced variation in clinical decision-          16 “84     11   55   10   100   37 , 76

making

e. Reduced costs associated with clinical care      10 ‘ 53    9    45   6    60    25   51

f. Better protection from malpractice

litigation brought against the organization or      10    53   5    25   5    50    20   41

its providers

g. OTHER goals                                      15         0    Q    1    10    2 ,4





Number of Goals
                    EKI N
                                                               WI





                                             B-4

i

~======
    a. Acute Pain Management

    b Urinary Incontinence in Adults         HEl?RE





                                Hospital         Nursing Home         HMO    TOTAL
                                 N=19                N=20             N=1O    N=49



II          o          II   o




1~1                                 t       II

II                     II   5




         TOTAL              19          W   II   2a




      3This includes “full implementation” and “pilot project” use.


                                                 B-5
-w. tha~
     id
     addition
toAmPRgtd
       H~@al
 devekqdby
   other
rld&e&*e
to  Or@miza
  chid
   topkx$
    listed
     b ekd
Table& me mnnber and perqemage of




     - UHML
organizationsthai reported




~tifiati
a. Acute Pain Management
b. Urinary Incontinence in Adults
                                           7
                                           5
                                                    37
                                                    26
                                                         7
                                                         15
                                                               35
                                                               75
                                                                    2
                                                                     1
                                                                            20
                                                                            10
                                                                                 16
                                                                                 21
                                                                                      33
                                                                                      43
c. Pressure Ulcers in Adults               6        32   12    60   2       Xl   20   41
d. Cataract in Adults                      2        10   1     5    2       20   5    10
e. Depression in Primary Care              o lo          7     M    4       40   11   22
f.	 Sickle Cell Disease                    0(1 $’        o      0 IE 0000
                                                              ~~~




                                    B-6

 ~abk 10. me number and percentage of
 organiza- that reported h@iig. @
 A@2PR guideline in “&eMowing M’orts
                             ‘LllM
 dirmted a@atie&

~&6%JG~l
 a. Mailingpatients reminders-to seek

 guideline-recornrnendedcare--either as part of   1    ~        1   5    1    10    3    6

 a newsletter or in a more directed mailing

b. Distributingcopies of the Pa-s      Guide
                                                  12   63       0   Q    ()   l-J   12   24

to patients

c. Conductingeducationalsessionsfor
patients about the guideline-recommended          6    32       3   15   ()   ()    9    18

care

d. ConductingOTHER efforts intendedto

encourage patients to seek guideline-
                                                  2    10       1   5    0    (-J   3    6

recommended care
                                                            /




                                         B-7

~MHMM
    mmigmm                                                                             22   45
a. Distributingcopies of the CZinicalRzxZice       12   63     8    40        2   20
GuMeilnes to clinicians
b. Distributingcopies of the QuickR@mnce           14 “74.     5    z         2   20   21   ’43
Guidefw CliniciarLSto clinicians
c. Distributingcopies of the Patient%Guide to      15   W ~ 5       25        2   20   22   45
clinicians
d. Providingformal continuingeducation for         7    3’7:   11   55 ‘ o        u    18   37
clinicians on guideline-recommended care
e. Conductingskillstrainingfor clinicianson        9    47     11   55        0   u    20   41
guideline-recommended care
f.	 Ccmducti.ngacademic detailing for clinicians   3    16     2    IQ        o   0    5    10

about guideline-recommended care

g. Providing feedback to clinicians about the

extent to which their care conforms to             3    16     9    45 ~ 2        20   14   29

guideline recommendations

h. Conducting OTHER efforts intended to

encourage clinicians to provide guideline-         2    10 ~ 4      20        4   40   10   20

recommended care                                                         1





                                            B-8

Table 13. ‘I& ~umber ad pergatage of organ&@ium that reported having used
AH~R @&l@es in the .i@w&d lmmllerof @ducatkmLd     e&hrt&dixee&&at.@ni@ms


==lMmmm




                                   B-9
                                                       �
r


  Table 14. The number and.perc@age of
: c3rg@zatk?tlathat &ported hm@g:u$ed
  J%FXXXR:guidojjne(s).lmthe Mkiw&ig
    Z@ii&?mtite Z&W@e&?*giti.’eEm-ta
    -,+~
                                                                 BBL
~fi=                                                                         EZ
 a. Developing a clinical pa@ algori~         or

    other guidelineimplementationtool has@ at          12   63    13   65     6   60   31    63

    least in pm on AHCPR guidelines

    b. Institutingautomated computer systems           2    10    3    15     0   0    5 :   10

    that refleet guidelinerecommendations

    c. Institutingretrospective remindmsfor            1    5     2    10,    1   10   4     8

    Cliniciam+

    d. Making changes to clinician-patient

    encounter forms that encourage cliniciansto        9    47    6    30     1   10   16    33

    provide the guideline-recommendedcare

    e. Makingchanges to lab- or test-order forms

    that encourage cliniciansto provide the            2    10    4    2Q     o   u    6     12

    guideline-recommended care

    f. Mandatingadherence to the guideline             1    5     3    15.    4   40   8 ~ 16

    g. InstitutingOTHER administrativeor

    technologicalchanges that encourage                1    5     3    15.    1   10   5 : 10

    cliniciansto provide the guideline­

    recommended care





    4Examples of such automated computer systems include those that provide clinicians with
on-line access to guidelines or guideline summaries; those for concurrent reminders that can be
programmed to appear on the computerized charts of patients who have appointments; those
for formularies; and those for prescription, lab- or test-orders.

    5An example of a retrospective reminder is a list of patients who have not yet received the
guideline-recommended care.


                                                B-10
B-n
Talk 16. The munber aud pimxmtage of




                                                   ‘MHUL
orgau@ticms thatrepwted bing U$@lhe
~ fo&nvinJjKxOn$lmic
                  incentiwwtu Eilcourage
        .    .
    =-~y-y                    ~~   ~e”m~
                 ..   . ...                ~

~                                                      ti         Efi%                     G
a. Financial bonuses for clinician provision of             0   0   ()      o    ()   o        () ‘f)
the guideline-recommended care
b. Financial penaltiesfor clinician failure to              o   0       0   u’   o    0        0    0
provide the guideline-recommended care
                                                                    1
c. Changes in reimbumement policy that
discourage care other than that recommended                 o   0       0   #.   2    2Q       2    4
in the guideline
d. OTHER economic incentives that

encourage clinician provision of the guideline-             0   0       0   u:   1    10       1    2

recommended care





                                               B-12

B-13
 Resistance from:
 a.    Physicians                                    7   37     5     25    2    20      14 , 29

 b.    Nurses                                        5   26     5     X5    o    0       10   20

 c.    Other Staff                                   2   10     4     Xl : 1     10      7 ‘ 14

 d.    Patients                                      1    5     3     15    0    q       4    $,

 e. Lack of support from administration              1    5     0      0    0012

 f. Uncertainty about how to implement               9   47     10    50
   2    20’21        43
 the guidelines

 g. Operational difficulties                         2   10     3     15    2    20      7    14

 h. Inability to measure compliance with             7   37     4     20    1    10      12   24

 the guidelines

 i. Inability to measure the effects of the          7    3’7   4      20  1     10      12   24

 guideline use
                                          ~~          ,“:  HE

 j. Expense of implementation                        5   26     2

 k. OTHER factors                                    o    0     2     IU ‘Imm





    %xamples of operational difficulties include problems with computer systems, patient-
encounter forms, and medical-records administration.


                                              B-14
                           6

+1’’32”
                      6

                      4    1
     2   II           3    2




II   5   lU-          2

                      2

                      0

                      0

                      20




               B-15
~mHMM
     ‘Eabk.2Z The qumberand.percentage.of



                                                                mmmm
     a. Distributing written materials explaining
     guidelines to clinicians and/or administrators
     b.	 Conducting educational sessions for
     clinicians and/or administrators about the
     guidelines
     c. Distributing written materials explaining
     guidelines to patients
     d. Conducting educational sessions for
     patients about the guidelines
     e. Using an existing quality assurance system
     to measure compliance with the guidelines
     f. Developing new measurements to assess
     compliance with the guidelines
     g. Seeking additional funding to cover the
     costs of guideline implementation
     h. OTHER stem to address the obstacles




II       Number of Steps        II   N
                                          I % II

II               1

II               2

II               3

                 4                   2       10             3
                 5                   3       16             1
                 6                   1         52
                 7              BE 1           5            0

             TOTAL                   19      982      Irx



                                                    B-16
        �
: Td)le 25, The mmher and pgx&ptage of
  uqg@z@ions *at rt=qxlrtedhasi@g@led:*             Hospital
: f@k!Uidg.~et@@ ‘w .meastl@@.’eE&% Qf
  th& ti ti$.th&.AHCl+Rguide~”“’:                              RHH

~mmdmmid
 a. Measures of clinician performance                15            3         15     0    .@   Q        ~


 b. Measures of patient satisfaction                 1     5       1         5      0    0    2        4
 c. Measures of patients’ clinical outcomes          15            57        257    Og        67   1$7
 d. Measures of cost                                 00            00               17   10   1        2“
 e. Measures of organizational performance           Otl           1.5              17   !0   2        4
 f. OTHER methods to measure the effects             00            0         0      1’   10   1    2
 of the guidelines                                             +         :         BE

                                               -I




   7While three nursing homes indicated that they have measured the effects of their use of
the AHCPR guidelines, five nursing homes indicated that they have taken measures of
patients’ clinical outcomes to assess the effects of their use of the AHCPR guidelines.

Similarly, while no HMOS indicated that they have measured the effects of their use of the
AHCPR guidelines, one HMO reported that it has taken a measure of cost to assess the
effects of its use of the AHCPR guidelines; one HMO reported that it has taken a measure of
organizational performance, and one HMO reported that it has used another method to assess
the effects of the guidelines.


                                              B-17
B-18
B-19
    Hospital   Nursing Home   HMO    TOTAL
     N=82          N=75       N=37   N=194




               B-20


—
           APPENDIX         C

COMPLETE   coIm4EN’m ON THE D~   REPORT




               c-1
 Department       OF HEALTH & HUJWY SERWCES	         PublicHealth
                                                               Service



                                                     Memorandum
     JUJ719S6

 Assistant Secretar”7 f ~~ Health


 off
   iCe Of InsDector General (OIG) Draft Reports on the

 Utilization 02 Clinicai ?ractice ’Guidelines Sponsored by the

 Agency for Health Care Policy and Research


 Inspector General, OS



Attached are the public Health Service comments    on the Subject
OIG reports.                   the recommendations
                We concur ‘witrh                    and have
taken, and will   continue to take actions to implement them.
In addition to our comments on the specific recomendations~
we offer a series of technical comments for your
consideration.



                            Philip R. Lee, M.D.



Attachment




la—

Mm        —
PDIQ

DIGAS         I
DIGEI

DIGOl   —

DIGMP   —
         /

AIGCFAA —

              4
              -
                                                                        .,
                                                                        .. ..
                                                                        L-1

                                                                                .,
                                                       ,-      m
                                                       --      -
                                                       , .          —
                                                       ,..._        J

                                                       L“..
                    .
                                                       :.,.’

                                                       ,,---”

                                                               -1
                                                                    w
                                                                    —
                                                                    w
        COMMENTS OF THE PUBLIC HEAL’T3 SERVICE ON THE OFFICE OF ~E

       INSPECTOR GENERAL D~FT ?.

                                EpORT “CLINICAIJ p~CT~CE GUIDELI~S

       SPONSORED BY THE AGENCY FOR HzALTH CARE POLICY .WD RESEARCH:

         EARLY EXPERIENCES IN CLINICAL SETTINGS,” OEI-J1-?4-00250



  General Comments


   The Office of the Inspector Generai (OIG) has surveyed a sample
   of three types of providers regarding their experience with
   clinical practice guidelines deveioped under the auspices of the
  Agency for Health Care Policy and Research (AHCPR) . AHCPR worked
  with the OIG in developing the suney and PHS is pleased to now
  receive useful feedback from it. The survey queried respondents
  regarding six guidelines  released between March 1992 and April
  1993, and was conducted in December 1994.   The findings indicate
  that in this very short time, almost one-third of the suneyed
  institutions were using or intended to use at least one of the
  guidelines to improve the effecci’~eness and WalitY Of clinical

  praccice within tiheir indiviauai settings.  viewed in the contexc

  of traditional rates of diffusicn of new information into health

  care practice, these findings are extremely encouraging.


  The AHCPR-supported guidelines .have
                                  .
   been more rapidly and widely

  adopted than many other guidelines, practice recommendations~ OF
  alerts issued by public agencies or professional OrgaIIIZatlOns.
 Further, the findings from the suney may understate the impact

 of the guidelines if, as is noted in the draft report, additional

 organizations may be indirectly relying on AHCPR-sponsored

 guidelines.   Many providers may draft or revise “internal”

 guidelines based on guidelines developed by other organizations,

 including AHCPR.   Organizations may also incorporate into their

 protocols recommendations that ~ia not come directly from AHCPR-

 printed documents, but rather from reports or journal articies
 summarizing the guideline reccmmen.aations. If true, the survey

 responses obtained bv the OIG r,av substantially under-report the
 full impact of the g~idelines.   -

It is important to note that :he :hree t’YPes of o:ga~lzations

sampled by the OIG are not zepresen.tative of all ‘~ea~t-hcare

institutions.   To Obtain a comDieCe
                               .     Dlcture of the :ncenclves and

                                     .

                                                    ‘-gs we will

obstacles to guideline use exper~en.ced across sett--­

need to survey additiona~ types =f providers (e.9.I ~pA ‘Oael

~,os , large hospitals, zeachinq hcsqltals, etc.) . It is also

important to note that differen.c ;’~ldelines are more re~evant ‘o

some :~es of providers than ozkers. We therefore “;:oula
  expect,

and zma in the s’urvey z-esuits z=ported here) , thaz the





  1“
    Anumberofstudies
                 documentm~
                          rates
                              ofdiffusion
                                     ofnew[echnologles
                                                  ormforma[lon
                                                           mo health pracuce

                                                                  care
are
  cl[ed
     m thedraft
             repor[.
                  Morerecekmformauon
                                   re~araml
                                    -. [he AMA’sexpenencewt[h
                                                          disseminating
                                                                   gwdellnes

                                                                         IS

      dinour
d.$cusse               below.

          [echmcalcommems


                                    C-5

  particular types of facilities surveyed wouid be more   likely to
  implement some guidelines than others.

  AHCPR has issued 16 clinical practice guidelines.     Responding to

  heavy demana, zhe agency has distributed close to 16 million

  copies of these guidelines.    We believe, as documented in the

  draft report, that the validity and credibility of the AHCPR­

  sponsorea guidelines have been major faccors in their growing use

  for quality improvement. No organization surveyed cited

 disagreement with the content of the guidelines as a reason for

 not implementing them. Other evaluations, including the
 companion OIG report presenting case descriptions Of
 organizations that have implemented AHCPR-supported guidelines,
 confirm extensive ado”ptlon  of AHCpR-sponsored guidelines.    There
 is also substantial evidence that implementation of the
 guidelines by health. care organizations is resulting in

 significant improvements in patient outcomes as well as

 reductions in health care costs.

  The OIG~~Do~:
                 ~dentifies barriers to guideiine use exper~enced
 by survey respondents. Acknowledging that the A.HCPR guideline
 program is very new, the report notes that introducing clinical

 practice guidelines, as with other recommended changes in medical

 practice, poses significant challenges.   Research on the

 implementation of clinical guidelines and, more generally, on the

 assimilation into medical practice of new methods, technologies,

 or other behavior changes, has consistently shown that change is

 generally SICW and requires sustained, carefully-targeted efforts

 that directiy involve practitioners and patients.


  To achieve the full potential related to implementation of
 practice guidelines we need to find more effeccive ways tO
 promote aaopcion, adaptation, and implementation of the
 guidelines.   The OIG’S study was not designed to evaluate AHCPR’S
 internal srccesses for aeveioping or disseminating guidelines,
 nor AHCPR’ s program for evacuating guideline dissemination and

 implementazicz strategies.   We believe that these evaluative

 efforts are crucial if we are to promote greater use of clinical

 practice ~Jitielines. As described in our responses to individual

 recommenaaci C.-AS

                  below, AHCPR will continue ro focus and refine

 its efforrs Z3 identify the most effecti-~e methods for promoting

guideline im~iementation.    AHCPR is also embarked on a strategy

to improve t:.e efficienc~ of the guideli-ne development Process

and to bercer tailor gui~elines to the neeas of local users.

These changes should lead to development ~f guidelines and

guideline-reiated products and implementacicn tools that are more

easily assimil aced into practice by locai ixsci.tutions, and to

more effec:i-:e dissemlnat=Gn of the guiaeiines .





                               C-4

   OIG Recommendation


   The Public Health Service (PHS), throuah AHCPR, should determine
   more effective wavs to urornote familiarity with, and use of, the
   guidelines.

  PHS Comment


  PHS concurs with this recommendation.   As part of its ongoing

  efforts to evaluate and improve the guideline development and

  dissemination proc’ess, AHCPR sponsors a broad-based portfolio of

  research and evaluation urojects that the OIG did noc examine as

  part of the current scud;. These efforts include a variety of

  projects to assess the effectiveness of alternative strategies to

  encourage implementation  of guidelines in different settings.


  For example, AHCPR has a contract with the American Medical
  Review Research Center (AMRRC) that is comparing the
  effectiveness of alterna~i’ze educational outreach programs
  employed by peer review organizations to promote ado~cion of the
 AHCPR-sponsored guideiine on benign prostacic hyperp~asia. A
 cooperative agreement with the Department    of Veterans Affairs
  (VA) will compare the effectiveness of two educational strategies
 for implementing the A.HCpR-sponsored pressure ulcer prevention
 guideline in VA facilities across the United States. Another
 cooperative agreement  with the  Centers for Disease Cantrol and
 Prevention will assess the effectiveness   of targeted media
 campaign strategies in Oklahoma and Massachusetts to dlSSemlnate

 the AHCPR-sponsored urinary incontinence guideline.

AHCpR has issued research solicitations to encourage studies Of

how guidelines can most effectively be implemented in large group

practices and in primary care settings.   Several research

projects have been funaea in response to these solicitations and

are ongoing. AHC?R aiso,tias a contract through an i:ceragency

agreement with the Office of personnel Management to conduct

focus groups to elici: f=e~ack  about guidelines fro~,potential

users, including primary care physicians, physicians in academic

settings, and nurses.


 Basea on the findings cf these and other investigati=s,    and

 subject to the availabilic~y of resources, A.HCPR cent=.ues to

 explore alternative scrace~ies for increasing the familiarity of

 potential users with pracc~ce guidelines.    At the same time, as

part of its plans to refine and improve the guideline development

process, AHCPR is placing greater emphasis on efforts ‘tO

facilitate guideline ::piementation, including devei~<ment of new

types of products (e.g.,
                      —   posters, laminated cards) =Za greater

use cf effective modes c: distribution suck as elecr=:n.lc

dissemination.   AHCPR aiso plans to expand. partnerships to

deveiop guidelines in collaboration with ocher Feder=- and State

agencies and with pri~.-ateorganizations.   These cont~=uing

efforts should help tc increase awareness, acceptance, and use of

the guidelines.


                               L-J

   OIG Recommendation


   The PHS, throuqh AHCPR,     should make increased technical       sup DOrt
   available to midelines      users.
   PHS Comment


  PHS concurs with this recommendation.  Although not the focus of

  this OIG study, AHCPR sponsors a number of prOJectS to provide

  technical support to prospective users of practice guidelines.

  We will continue to do so.


  For example, AHCPR is sponsoring a series of reports on using

  clinical practice guidelines.         The first report, entitled Usinq

  Clinical Practice Guidelines to Evaluate Oualitv of Care, was

  issuea in March 1995. It discusses issues associated with
  implementing and rneasurlng     conformance   to practice  guidelines     and
  Earqecing opportunities      for clinical quality improvement.        More
  ;mporcantly, it is a practical hanabook         that lays out step by
 seep instructions       for deve~oplng guideline-related quality
 evaluation tools (medical review criteria, performance measures,

 and standards of quality) . This report has been widely

 disseminated to a range of health care organizations, including

 hospitals and medical review organizations.           There is

 considerable demand for the report from across the nation.              For

 example, the Group Health Association of America has requested

 copies to send to all its member plans.


Other reports to be issued in the near future will provide

detailed descriptions of projects in which AHCPR-supported

guidelines, review criteria, and performance measures have been

used in quality improvement programs. A forthcoming report

focuses on a project in whiclh Peer Review Organizations appiied

neaicai review criteria derived from AHCPR-sponsored guidelines

cn accze ~ain, urinary incontinence, and benign prostatic

hype.rpiasla in Medicare quali~y of care reviews. Another Wiil

tiescribe the results of efforts by the VA to disseminate ana

~inpiem,entthe pressure ulcer prevention guideline.

:2c~~ ~:as supported the development     of review Crlterla in

association with three Of the most      recent AHCPR-sponsored

guidelines : heart failure, unstable angina, and otitis media.

Review criteria are aiso currentiy being developed for a

guideline on cardiac rehabilitation.       These review criteria

snouid serve as practical tool,s    :or  organizations i.~tereste~ ~~­

impienenting these guidelines.


       is sponsoring a series of efforts to co~~ect, evaluate, 32Ci

AiicJ?.R

ziassi~’Y’performance measures to assist providers and other

keaith. care organizations in the~r quality improvement efforts.

parc ci this project involves li~king performance measures za

.J.HC2R-sponsoreapractice guidelines.  This should assist

:.-.SEL

     .

    ‘--Jcions interested in implementing practice guidelines ~C

:nprc>-equality of care.



                                    C-6

     AHCPR also provides information and teckn=cal assistance tO state

     and local health officials and policy makers through OUr user

     Liaison Program.   For exampie, a worksnc~ on medical

     effectiveness and outcomes research, off=red semi-annuallYt has

     included sessions on clinical practice ~::delines, review

     criteria, and performance measurement.   The sessions focused in

     particular on applications  in managed care, utilization and

     quality review, medical malpractice, ana -;:orkerscompensation.


  Subject to the availability of resources, .lHCPR continues to

  explore options for providing effeccive :=cMical   assistance tO

  providers and other institutions interesc=d in implementing

  clinical practice guidelines.  Opportunities for technical

  assistance should be expanded by the new collaborative

  partnerships described in response to the previous

  recommendation.



  OIG Recommendation


 The PHS, throuqh AHCPR, should develou and imulement systematic
 mechanisms for obtaininu obiective feedback about auideline use.

 PHS Comment


  PHS concurs with this recommendation.   Surveys can be an
  effective technique to assess the extent :3 which practitioners
 or patients generally are aware of, have accepted, and are using
 practice guidelines.   AHCPR supports developmental work to design
 valid instruments to be used in surveys c: guideline awareness

 and utilization.   In an effort to leverags resources, AHCPR also

 collaborates with a nu~er of outside organizations both in

 developmental efforts as well as in enccu==ging these

 organizations to include questions relate= za WCpR-sponsored

 guidelines in their own routine surve’ys.


In addition to cross-sectional or perica~: surveys, we believe

that it is also important to conduct more zargeted evaluation

efforts, including:


o	     experimental or quasi-experimental s=’~cies of specific

       dissemination and implementation stz=:egies;


o	     case studies of the logistics of gu~i=iine   implementation   in

       specific organizational settings; =Zi


o	     fOCUS Gr dlSCUSSIOn grOUpS Gf pOteI?Z23i Users to obtain

       feedback on ch,eeffectiveness of spe=~~ic guideline-related

       produczs and suggestions for overcc:::g barriers tO

       implementation.


Basea on developmental work, AHCPR is spcn=oring a surveY of

patient and practitioner attitudes regarti~ng the A.HCpR-sponsored

guideline on benign prostatic hyperplasia.  Results of the survey



                                 C-7

  (conducted prior to che implementation of educational programs

 designed to encouraae aaopcion of guideline recommendations),

 alon~ with results ~f a post-intervention survey wiil be

 publlshed later this year.


 In response to a question included after consultation with AHCPR

 staff, the Group Heaith Association of America’s 1994 Annual HMO

 Performance Survey fauna E:hat of those HMOS encouraging guideline

 use (82% of all HMOS sumeyed) , half (or 41~) had aaoP~ed Or
 adapted AHCPR-sponsoreci guidelines.   Based on a surrey instrument
deveioped  in collaboration with the AHcPR-sponsored guideline
panel and with AHCPR staff, the National Pressure Ulcer Advisory
Panel surveyed nurses and other specialists in acute care

settings across the country regarding the AHCPR-sponsored

pressure ulcer prevention guideline.     The New Hampshire Medicare

Peer Review Organization and the New Hampshire Foundation for

Medical Care have also sumeyed    hospitals and skilled nursing

facilities in New Hampsniye and Vermont regarding the pressure

ulcer guideline.


AHCPR continues to assess the feasibility, costs, ~n~

methodological soundness cf various options for obt=nlng

systematic feedback cn a broad scale regarding the awareness and

use of AHCPR-sponsored practice guidelines.  Subject to resource

availability, AHCPR aiso continues to explore options for

gathering additional information related to the most effective

methods to disseminate and implement practice guidelines.





                              C-8

    Technical comments


    Executive summary


    Page Para Line:                  Comment


i       2     4       As of this date AHCPR has released 16 clinical
                      practice guidelines.

i       2    6      The paragraph states that in Fy 1994, +fJmilliOn
                    was spent on dissemination and evaluat~on of
                    guidelines, of which $4 million was spent on
                    printing and dissemination.

                   During FY 1994, approximately $6 million WaS SPent
                   on grants and contracts which focused on the
                   evaluation of guidelines.   It should be noted that
                   FY 1994 was an atypical year for spending on

                   evaluations.  Durng this yearf fourl~r9e scalef

                   multi-year evaiuacion projects were lnltlatea, SO

                   that spending reflected projects covering more

                   than one fiscal year.

i      3     1     “The introduction of new technologies, including
                   new clinical practice guidelines, can be a S1OW
                   and difficult process. “

                   AHCPR-sponsored research shows that the

                   introduction and adoption of new technologies and

                   medical knowledge is in fact complex, influenced

                   by factors such as consistency with current

                  opinions and practices, skills and resources,

                  necessary to implement new knowledge, flnanc+al

                  reimbursement incentives, perceived impllcatzons

                  for litigation, and patient preference.    Patient

                  factors play a large role  in the aiff”us~on as well

                  as the effectiveness of health and ciinical

                  information, particularly in areas such as

                  compliance with. tueatment and medication

                  recommendations .anaadoption of prevention

                  behaviors.


                  In addition to publications cited in footnote 14

                  of the report, AHCPR has sponsored the following

                  work related to the effective dissemination cf

                  health and clinical information:


                  Agency for Heaith Care Policy and Research.

                  Effective Dissemination of Clinicai and Health

                  Information:  Conference Summary.  Secrest L. ,

                  Baker TE, Rogers EM, Campbell TF, and Grady ML,

                  editors. AHCPR Pub. NO. 95-0015. Rockville, 14D:

                  Agency for Health Care Policy and Research, Public

                            Health Service, U.S. Department of Health and

                            Human Services.  December 1594.

                            Amenrv ,
                            -------  fn~ -w-alth
                                     ---                -—— ­ Polic’y and Research..
                                           - -- - - . . care                           .
                            E~fec~ive Dissemination of Heaith and clin,
          lcal

                            Information to Consumer:s: -notated                   ourauhv.

                                                                             Bibli~

                            AHCPR. Pub.
                                    —— No. 95-0055. —           Rockville, MD:   Agency
                                                                                      --’ILL.
                                         ___
 policy and Research, Public H{

                                 4ealth rare
                            for F-------                                              =a.1. L-11
                                                nenartment of Health and Human

                            Service, U.S. -_=----------
                            Services. May 1995.

     i        4       1     i!weconducted a mall su~ey           of 380 key U.S. health
                            care ....”

                            While the OIG survey addressed three important

                            segments of the health care market, it is

                            important to note that the particular types of

                            institutions surveyed are not necessarily

                            representative oi all health care institutions.


                           For example, according to data from the American

                           Hospital Association, less than half of all

                           hospitals are small non-teaching hospitals. More
                           important,  these institutions       account   for less
                           than 10% of all  inpatient     admissions    in the U.S.

                           Furthermore, according to InterStudy, the majority

                           of HMO enrollees are served by IPA or network

                           models rather than staff model HMOS. Staff model

                           HMOS account for the smallest proportion of

                           enrollees of all model types.

          5       6        (First bullet on the page) : “Impetus for using
                           guidelines has frequently come from organizations’
                           internal quality improvement programs. “

                          In fact the impetus is over’wheirninglyfrom
                          internal quality improvement interests. Table  2
                          (Page B-3) notes that 84% (41 of 49) of those
                          using the guidelines cited ~his as their reason.

                           “External factors--such as directives from

                          supervising organizations and State law

                          requirements--have also played an important role. “

                          Table 2 on page B-3 shows that external ‘actors

                          play a much smaller role (26 cr 33%), and,among

                          the reporting organizati~ns, i= is primarl~Y

                          ,nursing homes clhat report e.xte~rAalfactors as

                          playing a role in guideline use.

ii       45                (Fourth builet on the page) : “~conom+c in~entives
                          to encourage clinicians were =Portea bY ‘ew
                          organizations. “


                                              c-lo

                  In face economic incentives were reported by only

                  HMos , and only two (or perhaps 3 , depending on

                  whetker che question asked providea a muitiple

                  response option) .

 iii
             (Firsr bullet on the page) : “Clinician resistance
                 was the second most frequently cited obstacle. ”

                  Clinician resistance is closely followea by

                  inability to measure guideline use and izability

                  to measure guideline effect.    In total 24

                 respondents reported physician resistance, while

                 12 reported these other two difficulties.     When

                 the full table on page B-14 is examined, the

                 message that seems clear  is that   tools and
                 technical assistance are needed to facilitate the
                 implementation of guidelines, the measurement of
                 guideline conformance, and examination of the
                 effecc ct guideline conformance on eutccmes.

iii
            Sentences 2 and 3 in the paragraph:  These two

                sentences, which are repeated in other sections ot

                the report, are unclear.


                One seems to state that 46% were “unfamiliar with
                the guidelines, the other that 40% were
                unfamiliar.

                In aadition, sentence 3 should clarify chat the

                focus of the study was only on small non-teaching
                hospitals and HMOS with staff model components.
                Without this distinction, the sentence =Ppears to
                generalize to all hospitals, nursing homes and

                HMOS .


iii    Z   3    Seccnd,~aragraph under first recommenaac~on:     “a
                reconslaeration” of A.HCPR efforts cc prc-,ote
                fami’.iarity with the guidelines.

               We agree that AHCPR should continue ZO sponsor
               research to identify the most effeccive strategies
               for dissemination, lmplementationf ~~oP~~~n and
               diff.~slcn of innovation. However, basec on the

               follcwing reasons, we do not believe ZhaZ the OIG

               study suDDorts a cOnclUSIOn that AHCF?.’s

               dissernin~~ion methods have been ineif=cci-ze.


               1) 3.HCP?.’Sdissemination efforts do not stress

               Agenc~,’name recognition.  The Agency name does not

               featcye prominently on the cover of the

               guideii~es , and they are frequently described in

               the ~eaia and published sources as “federallY

               sponsored” guidelines (as o:posed CO “~CPR

               guidelines”) . They are produced by paneis of


                               C-11

  private indiviauais convened under the auspices of

  the Federal government.   Consequently, failure to

  achieve name recocrnition should not be equated

  with inadequate d~ssemination.


   2) The terms l!fami~iarity wi~h guidelines: ad

   “guideline use” from the su~ey questionnaire may

  have different meanings to different individuals.

  Individuals may have seen a guideline, but not

  looked at it in detail, or not internalized its

  content. Conversely, an organization can have

  internalized the recommendations so thoroughly

  that they become standard practice, rather than a

  guideline produced by an external entity.

  3) It should be noted that the rate of guideline
  penetration reported by organizations responding
  to the survey (20% use and 32% including those
  reporting behavioral intent to use the guidelines)
  is consistent with the diffusion of other medicai
 effectiveness information and technologies.     For
 example, after distributing its smoking cessation

 guideline to 200,000 physicians the American

 Medical Association found that only 20% recalled

 having received the guidelines.   Only 25% of

 physicians sumeyed by the AMA reported using the

 HIV guidelines issued by AMA.


 Hearn, Wayne.   “On the Road to Prevention”.

 American Medical News. June 5, 1995. P. 9- (A coPY

 of this article is provided with this report)


  4) Dissemination of clinical information does not

 occur rapidly.   Antman et. al. report that despite

 evidence from randomized controlled clinical

 trials of the eifecciveness of therapies and

 interventions, it is often many years later that

 findings become standard recommendations in

 textbooks and ciinical expert reviews appearing in

 published literature.   For example, findings from

 multiple randomized controlled triais indicace

 that significance =sductions in,hospital mortality

could be achieved by administration of

thrombolytic drugs ~or patients with acute

myocardial infarczian. However, widespread

recommendation of ~his therapy by clinical experts

did not occur until 13 years after zhe appearance

of data from these zrials. since 1985, ‘wh:n ~~
approximate 20% ~eduction in the risk of aeatn. was
established at ~he ?<.001 ~evel, ~4 of the 43

review articles examined did not mention the

treatment or felt Lz was still experimental.





                c-i2
                Antman, Elliott M. et a~. “A Comparison of Results

                of Mets-analyses of Randomized Control Trials and

                Recommendations of Clinical Experts. ” Journal of

                the American Medical A,SsOclatiOn 1992; VO1.268,

                No. 2. P. 240. (A copy of the article is

                provided. )


                We believe that this contextual information is

                essential in interpreting the data and the

                recommendations presented in the Inspector

                General’s report.

iv   1     1    Systematic mechanisms    for obtaining feedback on
                guideline use.

                The suggested strategies for accomplishing this
                recommendation all focus on su~eys to examme
                familiarity with the guidelines.   While we agree

                that some cross sectional suney work is desirable

                to assess penetration of guidelines~ other

                possibilities should be considered, e.g.


               targeted evaluation efforts, in the form of quasi-
               experimental or experimental design, to look at
               implementation using specific dissemination and
               implementation strategies.

               case study examination of the logistics Of

               guideline implementation in various orgamzational

               settings.


               user groups to discussion methods for implementing

               guidelines and effective methods resolving

               barriers to implementation.


               targeted examination of guideline products to

               assess what factors contribute to their

               usefulness .


         Clearly a case study approach, such as thatoused by the

         OIG can augment survey data and provide addlt~onal
         valuable “feedback” on detailed aspects of the

         guideline.


         One of the problems with cross sectional surveys is

          that instrumentation problems may bias results; without

         additional qualitative     or quasi   experimental researcht

                                                             For

         it may not be possible to detect the biases.

         example, the term “’~se” of guidelines may mean

         different things to different individuals and

         organizations  .    The i~formation in footnote 19 of the

         OIG report specificailv discusses ~he different

         interpretations Of “au~deline
                                 .
          use”, and how differences




                                C-13

                        in the wording of questions may result in different

                        reported rates of guideline penetration.


                - With respect to user feedback forms attached to each

                  guideline, AHCPR has considered this method for

                  obtaining feedback. Mailback cards or feedback forms

                  may be used to offer qualitative suggestions to the

                  agency via open ended questions.  However, their

                  reliability ana validity for evaluating guideline

                 penetration or attitudes about the guidelines is

                 questionable because of sample based response bias. It

                  is not possible to identify with any certainty the

                 sample  frame, the characteristics of the respondents
                 versus nonrespondents, or whether the individuals

                 respond more than once to a mailback card.

    Introduction


    Page Para Line


    2       1       2       AHCPR was the successor to (rather than the
                            replacement for) the National Center for Health
                            Semites Research.

                           Although AHCPR activities related to health
                           senices research are consistent with the mandate
                           of NCHSR (including the conduct of the National
                           Medicai Expenditure .$u~~eY), AHCpR’s mandate ‘s
                           substantially broader than that of NCHSR,
                           encompassing: the conduct and sponsorship of
                           research, demonstration projects, eva~uations~
                           training, guideline development and d~ssem~nation
                           of


                                ciinical practice guide~ines~

                                medical effectiver.ess research \inciud~ng

                                Patient outcomes Research Teams and other

                                outcomes research projects) ,

                                dissemination research


                           and a variety of other =reas.

2       2       2         As of this date, AHCpR has released 16 clinical
                          practic e guidelines.

2       2       3         “The,~anels apply science based methccs to develop
                          specl~i c statements on -management for z.heclinical
                          condition under consideration. “
                          It is more accurate to state that

                          “The panels use an explicit approach and

                          meth.oaolog for evaluac inq scientific evidence to

                          deveicp recommendations  reiated to the diagnosis



                                          C-14

                       treatment, and management cf the clinical

                       condition under consideration.  In instances. ...”


    2       4   ‘4     In addition to establishing a toll-free guideline

                       request telephone line and availability of

                      guidelines through the National Librav of

                      Medicine and the Internet, the Agency has issued

                      the text of clinical. practice guidelines,

                      including quick reference guides and patient

                      booklets, in CD-ROM format. This product is

                      currently available for use by medical libraries

                      and will be available to the publlc through the

                      Government Printing Office in Fall 1995.

2       4        8    AHCPR both conducts and sponsors conferences on

                      guideline implementation.  In addition, the Agency

                      sponsors targeted and investigator initiated

                      research on guideline implementation and effective
                      methods of disseminating health information.


2       5        5    During FY 1994, four large scale, multi-year

                      evaluation ”projects were initiated, so that

                      spending reflected projects covering more than one

                      fiscal year.


2       7       1     This sentence suggests that the body of research

                      supported by the Agency has resultea @y   in the

                      identification of barriers to use of guldelmes.

                      The paragraph implies that the barriers listed in

                      the third sentence were identified from AHCPR

                      sponsored research, when they are items from the

                      OIG survey.


                     Whiie it is certainly  true that barriers to

                     guideline implementation exist, and that AHCPR

                     sponsored research has identified some of these

                     barriers, it is important to note ‘hat ‘CPR’S

                     research portfolio focuses on a broaa program of

                     research on the effectiveness of clinical

                     interventions as well as methods and tools for

                     transiting  medicai effectiveness information into

                     clinical decision making.


                     Barriers to guideline implementation are

                     ider.tifiea in the cantext of research studies to

                     evaiuate guidelines, to determine effective

                     clir.ical strategies, :0 identify salient quality

                     improvement strate~lesf and to disccver ways to

                     improve the commun~cation of clinicai and health

                     information.


                     The statement found in our commencs above (i 3 1)

                     more correctly characterizes the nature of the

                     Agency’s research.


                                     C-15

4   1     1&3    This sentences  is not entirely clear. At first it
                 might appear to say non-teaching hospitals seine
                 at the forefront of medical education.  Perhaps it
                 would be more direct to say:
                  I!wesampled non-teaching hospitals because ‘e
                 anticipated that  they would be more likely to use
                 existing guidelines such as those supported by
                 AHCPR than to develop their own. In contrast, we

                 assumed that teaching hospitals, because they

                 serve at the forefront of medical education, might

                 be more likely to develop their own guidelines. ”
4   l&2   1      The sampling strategy employed by OIG may have
                 resulted in an underestimation of guideline use.

                 We do not find     evidence  to support the assumptions
                 underlying     the sampling  strate9Y.  For example,
                 the assumption     is that small, non-teaching
                 hospitals would be more likely to use nationally

                 developed guidelines.       One might assume the

                 converse:     because teaching hospitals are at the

                 forefront of medical education, they,would be more
                familiar     with AHCPR-supported gu~del~nes, and more
                likely to use them. Many guideline Panel.me~ers

                are prominent researchers in academic medical

                centers throughout the U.S. ; conse~ently,        Such
                centers     may be more likely to use nationally
                developed guidelines such as those developed bY

                AHCPR .


                The second paragraph on this page states that HMOS

                with staff model components were selected because

                they show a trend toward managed care, and because

                staff model plans may be more able to influence

                providers.   As indicated in a previous comment,

                staff model :<MOS are the smallest segment of the
                managed care  market; data from InterStudy show
                that IPA/network models are the fastest growing

                segment of the market place.

              The Group Health Association of America study

              cited in footnote 18 notes that in surveying HMOS

              of all model types, approximately 33% used AHCPR-

              supported guidelines or adapted these guidelines

              for use. Consequently, the assumption that -~os

              with staff model components would be more likely

              to use guidelines developed by AHCPR may not be

              correct.





                                C-16

    5       3    2
     Parenthetical for pressure ulcers guideline should

                        be “ (prediction and prevention of pressure

                        ulcers) “.

 6          8    1
     This figure does not include organizations that,

                        in developing their own guidelines, used AHCPR (or

                        other national guidelines) as a basis.

 6          8    1
     This     finding    should      be qualified        to reflect    the
                        wording       of the OIG questionnaire.                As noted   in
                        footnote        18, the    term   “use”     of,gu+dellnes       may mean
                       different  things to different lndlvlduals and
                       organizations.   The information in footnote 18 of
                       the OIG report specifically discusses the
                       different interpretations of “~ideline use”, -d
                       how different wording of questions may result in
                       different reported rates of use of the gu~delines.
                       This information should be presented within the

                       text of the report.


6       9       3
     Footnote 20 should be associated with this

                       sentence, rather than the first sentence in

                       paragraph 8.


13      1       2
     The information in footnote 24 provides a number
                       of   examples    of   AHCPR di.ssem~natlon        aCtlVltieS
                       including a publications clearinghouse, electronic

                      dissemination of the guideline, medla,outreacht

                      and organizational outreach through direct

                      mailings, public-private partnerships, and

                      intermediaries (such as opinion leaders, medical

                      professional associations, continuing education

                      programs and consumer organizations) .   The report

                      recommends a reconsideration of dissemination

                      efforrs, but does not adequately recognize ongoing

                      dissemination activities.


13      1       2
    As indicated in the executive summary, sentences 2

                      and 3 in the paragraph are unclear.


                      One states that 46% were unfamiliar with the

                      guidelines, the other that 40% were unfamiliar.


                      Sentence 3 should ciarify that the survey focused

                      on smail non-teaching hospitals and ~Os ‘=th

                      staff model components.   The sentence could be

                      constr.~ed to apply to all hospitals, :~rsing homes

                      and W40S.





                                             C-17

                              APPENDIX                   D


                                          NOTES


1. One of the first reports on geographic variations in medical practice was published
in 1938 and focussed on the variation in rates of tonsillectomy among school children
in England (JA Glover, “The Incidence of Tonsillectomy in School Children,”
Proceedings of the Royal Society of Medicine, 1938; pp. 1219 -1236.)

In the past two decades, John Wennberg has published several articles that document
great geographic variation in medical practice in the United States. In a 1988 article,
he found that “A resident of New Haven, Connecticut is about twice as likely to
undergo a coronary bypass operation as is a resident of Boston; for carotid
endarterectomy, the risks are the other way around, The numbers of knee and hip
replacements per capita are much more common among Bostonians, while New
Havenites experience substantially higher risks for hysterectomy and back surgery.”
(John E. Wennberg, “Commentary: Improving the Medical Decision-Making Process,”
Health Affairs, Spring 1988; pp. 99- 106.)

Robert H. Brook and his associates from the Rand Corporation’s Health Program
have also published on this subject. In a 1986 article, they report that “Of 123
procedures studies, 67 showed at least threefold differences between sites with the
highest and lowest rates of use.” (Mark R. Chassin, Robert H. Brook, et al, “Variations
in the Use of Medical and Surgical Services by the Medicare Population,” New
England Journal of Medicine; January 30, 1986; pp. 285- 290.)

2. Institute of Medicine, Committee to Advise the Public Health Service on Clinical
Practice Guidelines, Marilyn J. Field and Kathleen N. Lohr, editors, Clinical Practice
Guidelines: Directions for a New Program (Washington DC: National Academy Press,
1990) p. 8.

Clinical practice guidelines are also known by other names, including “practice
parameters, “ “clinical indicators, “ “medical necessity guidelines,” “medical standards,”
and “practice policies.” (David M. Eddy, “Clinical Decision Making: From Theory to
Practice, Practice Policies--What Are They?” Journal of the American Medical
Association; February 9, 1990; pp. 877- 880.)

The American Medical Association definition of practice parameters refers to
“strategies for patient management developed to assist physicians in clinical decision
making.” (Directo~ of Practice Parameters: Titles, Sources, and Updates, 1994 Edition,
p. 189, Office of Quality Assurance and Medical Review, American Medical
Association, Chicago, IL.)




                                           D-1

3. The 1995 Edition of the American Medical Association’s (AMA) Directoty of
Practice Pararneten lists approximately 1800 practice parameters developed by more
than 70 physician associations and other organizations.

4. U.S. Congress, Office of Technology Assessment, Defensive Medicine and Medical
Malpractice, OTA-H-602, July 1994, pp. 140-148.

5. “CAPPCARE Developing Wireless Hardware for Instant Guidelines Access,”
Report on Medical Guidelines& Outcomes Research, 5 May 1994,
                                                           pp. 4-5.

6. According to Dr. James Cooley of the Harvard Community Health Plan (a staff-
model HMO based in Boston, MA), guidelines can be implemented through methods
that are patient directed and include educational sessions (in which either individual
patients or groups of patients are educated about the guideline) and reminder mailings
(in either newsletters or focussed mailings on single topics); methods that are directed
at clinicians and include guideline publication and distribution, continuing medical
education (CME) sessions, CME take-home quizzes, skills-training programs, and
academic detailing; administrative methods that include concurrent reminders (such as
automatic reminders that can be programmed to appear on the computerized charts
of those patients who have appointments), retrospective reminders (such as lists of
patients who have not yet received the prescribed intervention), encounter-form
changes that prompt physicians to ask certain questions or to provide certain services,
order-form changes that either encourage or discourage the use of specific laboratory
tests, the designation of personnel to manage and/or provide the specific care, and
feedback to providers about the extent to which they are complying with the guideline;
and methods that involve economic incentives, such as bonuses or penalties, and
changes in reimbursement policies (Telephone conversations with Dr. James Cooley
on September 14 and 21, 1994).

7.	 The Agency for Health Care Policy and Research Reauthorization Act of 1992
(P.L. 102-410) extended the authorization of AHCPR and amended some provisions
for the development of clinical practice guidelines.

8. According to P.L. 102-410, the guidelines must be based on the best available
research and professional judgement; presented in formats appropriate for use by
physicians, other healthcare practitioners, medical educators, medical review
organizations, and consumers; presented in treatment-specific or condition-specific
forms appropriate for use in clinical practice, educational programs, and reviewing
quality and appropriateness of medical care; include information on the risks and
benefits of alternative strategies for prevention, diagnosis, treatment, and management
of the particular health condition(s); and include information on the costs of
alternative strategies for prevention, diagnosis, treatment, and management of the
particular health condition(s) where cost information is available and reliable.

The AHCPR chooses its guideline topics on the basis of several factors: the adequacy
of scientific-based evidence from which to develop guidelines; the number of people
affected by a condition; the condition’s amenability to prevention; expected potential


                                         D-2
for reducing inappropriate variations in the prevention, diagnosis, management, or
outcome of the condition or disease; specific needs of the Medicare and Medicaid
populations; and the costs of the condition to all payers, including consumers
(AHCPR, Program Note: Clinical Guideline Development, August 1990).

9.	 Guidelines released to date include Acute Pain Management (issued in 3/92),
Urina~ Incontinence in Adults (3/92), Pressure Ulcers in Adults--Prediction and
Prevention (5/92), Cataract in Adults (2/93), Depression in Primary Care (4/93), and
Sickle Cell Dtkease (4/93), Early HIV Infection (1/94), Benign Prostatic Hyperplasia
(2/94), Management of Cancer Pain (3/94), Unstable Angina (3/94) Heart Failure (6/94),
Otitk Media with E~ion      (7/94), Quality Determinants of Mammography (10/94), Acute
Low Back Pain in Adults (12/94], Treatment of Pressure Ulcers (12/94), and Post-stroke
Rehabilitation (5/95).

10. See “Guideline Development    and Use,” included in each guideline published by
the Agency.

11. Among the organizations on AHCPR’S master mailing list are healthcare
education and credentialing organizations, hospitals, insurance companies, and
associations and societies for healthcare professionals.

According to the March 27, 1995 AHCPR Guideline Marketing Summary Reports,
7,288 articles have been published about the guidelines in newspapers, magazines, and
trade publications. In addition, 107 guideline reprints, excerpts, or summaries have
appeared in professional journals.

12. Among the companies that have issued reprints of the AHCPR guidelines are
Abbott Laboratories, Aetna, Bristol-Myers Squibb, Burroughs Wellcome,
Communicore, Dupont Pharmaceuticals, Eli Lilly, Forest Labs, Janssen, Key
Pharmaceuticals, Knoll Pharmaceuticals, Mead Johnson, Medco, Merck, Pfizer, Purdue
Frederick, Roche Laboratories, Roxane Pharmaceuticals, SmithKline Beecham, Syntex
Laboratories, and Zeneca Pharmaceuticals.

13. As examples of its dissemination efforts, AHCPR reports that it conducts direct
mailing of its guidelines to Health Resources and Services Administration grantees,
including community, rural, and migrant health centers and Area Health Education
Centers, and to Indian Health Service healthcare providers. In addition, the agency
has collaborated with the National Cancer Institute (NCI) to distribute its guidelines
on the management of cancer pain and mammography through the NCI clearing
house. Similarly, it has collaborated with the Centers for Disease Control to distribute
the HIV guideline through that agency’s clearing house. The AHCPR has also worked
with the Food and Drug Administration to distribute the mammography guideline to
mammography facilities and with the Health Care Financing Administration to
distribute the guidelines on acute pain management, urinary incontinence, and
pressure ulcer prevention to hospitals and nursing homes.

The AHCPR research projects also affect dissemination.     Among the dissemination-


                                         D-3
related projects is one that involves the Medicare Peer Review Organizations in an
effort to develop, implement, and evaluate quality and utilization review criteria for
three guidelines. Another research project involves an interagency agreement with the
Department of Veterans Affairs to test various dissemination strategies for introducing
the pressure ulcer prevention guideline.

14. Fiscal Year 1996 Budget, p. 49, U.S. Department of Health and Human Services;
and Fzkcal Year 1996 Budget Justification to OMB, p. 25, U.S. Department of Health
and Human Services. Additional budget information was provided by AHCPR to OIG
in a memorandum from Jill Bernstein (OPD/AHCPR), dated April 25, 1995.

15. Please see the following articles:

Ann L. Greer, “The State of the Art Versus the State of the Science: The Diffusion
of New Medical Technologies into Practice,” International Journal of Technology
Assessment in Health Care, v. 4, 1988, pp. 5-26.

Jonathan Lomas et al., “Opinion Leaders vs Audit and Feedback to Implement
Practice Guidelines: Delivery After Previous Cesarean Section,” Journal of the
American Medical Association, May 1, 1991, pp. 2202-2207.

Peter J. Greco and John M. Eisenberg, “Changing Physicians’ Practices,” New England
Journal of Medicine, October 21, 1993, pp. 1271-1274.

Roberto Grilli et al., “The Impact of Patient Management Guidelines on the Care of
Breast, Colorectal, and Ovarian Cancer Patients in Italy,” Medical Care, January 1991,
pp. 50-63.

Jacqueline Kosecoff et al., “Effects of the National Institutes of Health Consensus
Development Program on Physician Practice,” Journal of the American Medical
Association, November 20, 1987, pp. 2708-2013.

Margaret VanAmringe and Terry E. Shannon, “Awareness, Assimilation, and
Adoption: The Challenge of Effective Dissemination and the First AHCPR-
Sponsored Guidelines” Quality Review Bulletin, December 1992, pp. 397-404.

16.Institute of Medicine, Committee on Clinical Practice Guidelines, Marilyn J. Field
and Kathleen N. Lohr, editors, Guidelines for Clinical Practice: from Development to
Use, (Washington DC: National Academy Press, 1992). A discussion of the ways in
which different factors affect guideline use can be found in chapter four, beginning on
page 83.

17.Among the projects currently funded by AHCPR is one to assess whether aspects
of the guideline-development process are associated with user perceptions of the
validity, reliability, cost, and utility of the guidelines; another to model the cost impact
of various guideline recommendations; and others that focus on the development of



                                            D-4

medical review criteria based on guideline recommendations. Additional projects
examine variables related to the acceptance and implementation of specific guidelines.
Other projects seek to document changes in practice and patient outcomes stemming
from guideline use in primary care.

18. In contrast, we anticipated that teaching hospitals, because they serve at the
forefront of medical education, might be more likely to develop their own.

19. We are 90 percent confident that the percentage of organizations that have used
the guidelines is between 16 and 24.

20.	 In 1994 HMO Pe~orrnance Repoti, the Group Health Association of America
(GHAA) summarizes the results of its recent survey of a representative sample of 100
of its member HMOS (the Association achieved a 71 percent response rate to this
survey). The GHAA found that 82 percent of its respondents (approximately 58
HMOS) encourage their providers to follow specific clinical practice guidelines and
that 40.8 percent of this subset (approximately 24 HMOS) have adapted guidelines
from those published by AHCPR. Thus, GHAA found that approximately 33 percent
(.82 x .408) of its respondents have adapted guidelines from those published by
AHCPR.

By contrast, our survey of all 80 HMOS with staff-model components found that 20
percent have used one or more of the AHCPR guidelines about which we inquired.

The difference between the findings may be accounted for by several factors:

       1. The GHAA surveyed a sample of all of its member HMOS, while we
surveyed only the 80 HMOS that have staff-model components.

       2. The GHAA inquired about the use of AHCPR guidelines in general, while
our survey focused on the use of six specific AHCPR guidelines.

       3. The GHAA posed three broad questions about guideline use, while we
asked twelve pages of detailed questions.

       4. The GHAA’s survey question asked whether or not the organizations had
developed their own guidelines and, if so, whether or not these were based on the
AHCPR guidelines; while we asked if organizations had “used’ the AHCPR guidelines
(respondents may have interpreted “used” as meaning direct application of the
AHCPR materials and as excluding the adaptation of these materials for local use).

21. Certain guidelines may be of greater relevance than others to certain types of

healthcare provider organizations. One would not expect that all guidelines would be     ‘

used by all organizations. For example, one would not expect the guideline on sickle

cell disease to be used by many nursing homes for the aged.





                                         D-5

22. The AHCPR reports that its guidelines have been distributed to every hospital
and nursing home in our survey sample. Substantial evidence demonstrates that the
introduction of new technologies, including new clinical practice guidelines, is a slow
and difficult process. See end note # 15 for a partial listing of relevant articles.

23. Such materials include the Clinical Practice Guideline, the Patient’s Guide, and/or
the Quick Reference Guide for Clinicians.

24. Examples of automated computer systems include those that provide clinicians
with on-line access to guidelines or guideline summaries; those for concurrent
reminders that can be programmed to appear on the computerized charts of patients
who have appointments; those for formularies; and those for prescription, lab- or test-
orders.

25.An example of a retrospective reminder is a list of patients who have not yet
received the guideline-recommended care.

26.Information Diweminahon to Health Care Practitioners and Policymakers:
Annotated Bibliography, Agency for Health Care Policy and Research (AHCPR),
Public Health Service, U.S. Department of Health and Human Services, April 1992,
p.1.

27. The AHCPR’S efforts in this domain include both its User Liaison Program
meetings and a recently released guide for organizations entitled “Using Clinical
Practice Guideline to Evaluate Quality of Care.”




                                          D-6

